July 13, 2007

JERRY D. LANE
VICE PRESIDENT, CAPITAL METRO AREA OPERATIONS

SUBJECT: Audit Report – Review of the Postal Service’s Refund Process – Capital
         Metro Area (Report Number DR-AR-07-011)

This report presents the results of our self-initiated audit of the U.S. Postal Service’s
Refund Process in the Capital Metro Area (Project Number 05YG044DR000). The
overall objective was to determine whether retail associates and customer service
supervisors were properly processing and recording refunds of stamps, fees, retail
services, and Express Mail® services.

Capital Metro Area retail associates and customer service supervisors were not always
properly processing and recording refunds of stamps, fees, retail services, and Express
Mail services. Specifically, retail associates did not always complete refund
documentation, enter the proper refund account identifier codes in the Point-of-Service
system, and provide signatures on Postal Service (PS) Forms 1412, Daily Financial
Report. These conditions occurred because customer service supervisors did not
always adequately oversee the refund process. As a result, we projected the four sites
visited in the Capital Metro Area have incurred $180,619 in unsupported questioned
costs and $531,784 in assets at risk for refunds of stamps, fees, retail services, and
Express Mail services, which we will report in our Semiannual Report to Congress.

We recommended the Vice President, Capital Metro Area Operations, direct district
managers to ensure customer service supervisors provide oversight of retail associates
to ensure they follow established procedures for processing and recording refunds. We
also recommended directing area finance and retail managers to reissue the area
refund policy memorandum to remind employees of refund procedures, and ensure
customer service supervisors verify whether retail associates are properly signing their
individual clerk PS Forms 1412. Finally, we recommended directing district managers
to ensure customer service supervisors review PS Forms 1412 and supporting
documentation.
Management agreed with our findings, recommendations, and monetary impact and has
initiatives completed and planned to address the issues in this report. Management’s
comments and our evaluation of these comments are included in this report. The U.S.
Postal Service Office of Inspector General considers recommendations 1, 2, 3, and 4
significant, and considers the support provided by management detailing corrective
ongoing actions to be sufficient to close these recommendations.

We appreciate the cooperation and courtesies provided by your staff during the audit. If
you have any questions or need additional information, please contact Rita F. Oliver,
Director, Delivery, or me at (703) 248-2100.
 E-Signed by Colleen McAntee
ERIFY authenticity with ApproveI



Colleen McAntee
Deputy Assistant Inspector General
 for Mission Operations

Attachments

cc: Patrick R. Donahoe
    Kathleen Ainsworth
    Frederick J. Hintenach III
    Janet L. Webster
    Debra Chin
    Richard W. Rudez
    Jeffrey Becker
    Tammy Edwards
    Timothy O’Rielly
    Michael S. Furey
    W. C. Miner
    Katherine S. Banks
Review of the Postal Service’s Refund Process –                      DR-AR-07-011
Capital Metro Area




                                   TABLE OF CONTENTS

Executive Summary                                                                i

Part I

Introduction

    Background                                                               1
    Objective, Scope, and Methodology                                        3
    Prior Audit Coverage                                                     4

Part II

Audit Results

     Refund Process                                                          5

     Incomplete or Missing Refund Documentation                              5
     Recommendation                                                          6
     Management’s Comments                                                   6
     Evaluation of Management’s Comments                                     7

     Improper Recording of Refund Account Identifier Codes                   8
     Recommendation                                                          9
     Management’s Comments                                                   9
     Evaluation of Management’s Comments                                     9

     Appropriate Signatures Missing from Postal Service Forms 1412          10
     Recommendations                                                        11
     Management’s Comments                                                  11
     Evaluation of Management’s Comments                                    11

Appendix A. Refund Disbursement Process                                     12

Appendix B. Statistical Sampling And Projections For Review of              13
            Point-of-Service Refunds

Appendix C. Management’s Comments                                            22
Review of the Postal Service’s Refund Process –                                     DR-AR-07-011
 Capital Metro Area


                                   EXECUTIVE SUMMARY
 Introduction                   This report presents the results of our self-initiated audit of
                                the U.S. Postal Service’s Refund Process in the Capital
                                Metro Area. The overall objective was to determine whether
                                retail associates and customer service supervisors were
                                properly processing and recording refunds of stamps, fees,
                                retail services, and Express Mail® services.

 Results in Brief               Capital Metro Area retail associates and customer service
                                supervisors were not always properly processing and
                                recording refunds of stamps, fees, retail services, and
                                Express Mail services. Specifically, retail associates did not
                                always complete refund documentation, enter the proper
                                refund account identifier codes in the Point-of-Service
                                (POS) system, and provide signatures on Postal Service
                                (PS) Forms 1412, Daily Financial Report. These conditions
                                occurred because customer service supervisors did not
                                always adequately oversee the refund process. As a result,
                                we projected the four sites visited in the Capital Metro Area
                                have incurred $180,619 in unsupported questioned costs
                                and $531,784 in assets at risk for refunds of stamps, fees,
                                retail services, and Express Mail services, which we will
                                report in our Semiannual Report to Congress.

 Summary of                     We recommended the Vice President, Capital Metro Area
 Recommendations                Operations, direct district managers to ensure customer
                                service supervisors provide oversight of retail associates to
                                ensure they follow established procedures for processing
                                and recording refunds. We also recommended directing
                                area finance and retail managers to reissue the area refund
                                policy memorandum to remind employees of refund
                                procedures. In addition, we recommended directing district
                                managers to ensure customer service supervisors verify
                                whether retail associates are properly signing their
                                individual clerk PS Forms 1412. Finally, we recommended
                                directing district managers to ensure customer service
                                supervisors review PS Forms 1412 and supporting
                                documentation.




                                                  i
Review of the Postal Service’s Refund Process –                                       DR-AR-07-011
 Capital Metro Area




    Summary of                      Management agreed with the findings, recommendations,
    Management’s                    and monetary impact. Management issued a policy
    Comments                        memorandum, PS Form 3533 Instructions and Closeout
                                    Procedures for Retail Associates, on June 25, 2007 to all
                                    Capital Metro Area district offices. Management also stated
                                    verification procedures will be added to the fiscal year (FY)
                                    2007 Post Office Quarterly Self-Audit Checklist for customer
                                    services supervisors, managers and postmasters. In
                                    addition, management reissued the policy memorandum,
                                    Proper Recording of Refund Account Identification Codes,
                                    on April 10, 2007 to all district managers. Finally,
                                    management stated they issued financial closeout
                                    procedures to retail associates. Also, management added
                                    the responsibility for review of PS Form 1412 supporting
                                    documentation at the end of each day to the FY 2007 Post
                                    Office Quarterly Self-Audit Checklist for customer services
                                    supervisors, managers and postmasters. Management’s
                                    comments, in their entirety,1 are included in Appendix C.

    Overall Evaluation of           Management’s actions taken and planned are responsive to
    Management’s                    the recommendations and should address the issues
    Comments                        identified in the findings.




1
    Management’s comments do not include full attachments.


                                                         ii
Review of the Postal Service’s Refund Process –                                                     DR-AR-07-011
 Capital Metro Area


                                            INTRODUCTION
    Background                    The U.S. Postal Service established polices and procedures to
                                  process refunds. Specifically, it has grouped all refund requests
                                  into categories and assigned accounting codes to facilitate the
                                  refund process. These accounting codes allow the Postal
                                  Service to effectively track revenue by customer type and help
                                  attribute refunds to the correct postage category.

                                  The Postal Service has assigned twelve Account Identification
                                  Codes (AIC) 2 to use when processing refunds of postage and
                                  fees. During fiscal year (FY) 2005, the Postal Service
                                  processed approximately $252 million3 in refund transactions.
                                  However, we limited our review to AICs 553, 535, and 676,
                                  which accounted for approximately $75 million of the refund
                                  transactions in FY 2005. Table 1 shows the total dollars
                                  refunded in these three accounts for FY 2005.

                    Table 1. Summary of Refunds for AICs 553, 535 and 676 for FY 2005

                                                            Total Amount
                                     Total Amount            of Refunds
                                     of Refunds for         for Fees and      Total Amount
                                      Postage and               Retail        of Refunds for
                                          Fees                Services        Express Mail®           Area
                    Area                (AIC 553)             (AIC 535)          (AIC 676)           Totals
            Great Lakes                   $5,902,634             $975,513            $666,224       $7,541,371
            Pacific                       10,197,620            1,567,090           1,125,496       12,890,206
            Eastern                        6,865,091            1,475,387             723,776        9,064,254
            Northeast                      4,581,910              709,185             510,621        5,801,716
            Southeast                      7,242,534            1,210,988             979,970        9,433,492
            Western                        7,310,653            1,575,794             778,589        9,665,036
            Capital Metro                  5,366,322              530,093             273,887        6,170,312
            New York Metro                 6,135,185              551,261             784,633        7,471,079
            Southwest                      5,237,092            1,021,171             552,263        6,810,526
            TOTAL                        $58,839,051           $9,613,482          $6,395,459      $74,847,992

                                   Source: Postal Service Accounting Data Mart

                                  The Postal Service disburses refunds to customers who have
                                  submitted the proper documentation. Management reviews the
                                  documentation to verify the transaction. (See the flow chart for
2
  The Postal Service uses twelve AICs to categorize refund transactions to include: 525 Precanceled Stamp Refund;
526 Customer Meter Postage; 528 Permit Postage; 535 Refund of Fees; 536 Removed and Reserved; 537 Postage
Refunds of Printed Stamped Envelopes; 541 Value Added Services; 553 Stamps and Fees; 558 Customer Meter
Withdrawn; 608 Postal Related Products; 624 Refund of Miscellaneous; and 676 Express Mail. However, for the
scope of this audit we only reviewed AICs 535, 553, and 676 because these AICs had the higher dollar amounts.
3
  We extracted refund information from the Accounting Data Mart, which indicated the Postal Service processed
approximately $252 million in refund transactions during FY 2005.




                                                        1
Review of the Postal Service’s Refund Process –                                    DR-AR-07-011
 Capital Metro Area


                               the refund process in Appendix A.) The following describes
                               AICs 553, 535, and 676:

                               •    Employees use AIC 553, Refunds for Postage and Fees, to
                                    process and record a refund if postage and special or retail
                                    service fees are paid and no service is rendered, or if the
                                    amount collected was more than the lawful rate. To receive
                                    a refund, the customer must submit a completed Postal
                                    Service (PS) Form 3533, Application and Voucher for
                                    Refund of Postage, and supporting documentation such as a
                                    receipt, Postage Validation Imprinter (PVI) label or invoice.
                                    In addition, this AIC includes Business Reply Mail (BRM),
                                    which authorizes mailers to receive First-Class Mail®
                                    (without pre-paid postage) back from customers by paying
                                    the postage and fee upon receipt of the mail pieces. To
                                    receive a refund, the permit holder must submit a completed
                                    PS Form 3533 to the postmaster, documenting the excess
                                    postage payment for which they want a credit or refund. The
                                    permit holder must also present to the designated office
                                    properly faced and banded bundles of 100 identical BRM
                                    pieces with identical amount of postage affixed. The Postal
                                    Service assesses a charge of $35 per hour, or a fraction
                                    thereof, for the workhours used to process the refund.

                               •    Employees use AIC 535, Refunds of Fees and Retail
                                    Service, to process and record a refund for post office box
                                    keys and refundable Post Office Box®/Caller service fees.
                                    To receive a refund, the customer must submit a completed
                                    PS Form 3533 and supporting documentation such as a
                                    receipt, post office box key or invoice.

                               •    Employees use AIC 676, Express Mail Refunds, for Express
                                    Mail service. This special service is the Postal Service’s
                                    premium delivery service for documents and packages
                                    weighing up to 70 pounds. This money-back guarantee
                                    service includes tracking, proof of delivery, and insurance up
                                    to $100. Delivery to most destinations is available 365 days
                                    a year, with no extra charge for Saturday, Sunday, or holiday
                                    delivery. If an Express Mail item is not delivered or made
                                    available for the customer as guaranteed under the
                                    applicable service purchased, the mailer may request a
                                    postage refund. To receive a refund, the customer must
                                    submit a completed PS Form 3533 and supporting
                                    documentation, such as an express mail label tracking
                                    receipt.




                                                  2
Review of the Postal Service’s Refund Process –                                                           DR-AR-07-011
 Capital Metro Area




    Objective, Scope, and The overall objective was to determine whether retail associates
    Methodology           and customer service supervisors were properly processing and
                          recording refunds of stamps, fees, retail services, and Express
                          Mail services.

                                    To accomplish our objective, we reviewed applicable policies
                                    and procedures in regards to the verification, approval, and
                                    disbursement of refunds. We obtained, reviewed, and analyzed
                                    data from the Point-of-Service (POS) system, Retail Data Mart,4
                                    and Accounting Data Mart5 for the area and districts under
                                    review to determine the amount of refunds processed. We also
                                    reviewed applicable documentation, such as PS Forms 3533,
                                    PS Forms 1412, and other supporting documentation to
                                    determine whether appropriate signatures had been obtained
                                    for approval, verification, and disbursement of funds for refunds.
                                    In addition, we interviewed customer service supervisors and
                                    retail associates.

                                    We judgmentally selected four retail units within the Capital and
                                    Northern Virginia Districts: Xxxxxx Xxxxxxx and Xxxxxx Xxxxxx
                                    Processing & Distribution Center (XXXX XXXX), Xxxxxxxxxx,6
                                    Xxxxx Xxxx, and Xxxxx Xxxxxxxxx. We constructed a stratified
                                    sample and randomly selected 483 refund transaction days and
                                    reviewed 2,995 refund transactions totaling $1.5 million for FY
                                    2005.7 Table 2 shows the total number of transaction days,
                                    total number of refund transactions, and total dollar amounts
                                    reviewed for all four sites. See Appendix B for details regarding
                                    the stratified random sample of refund transactions.




4
  The Retail Data Mart (RDM) was developed to give access to retail transaction data and critical business
information used for operational planning, fraud detection, and strategy development, as well as sales and market
analysis. The RDM was established to harness the power of retail data to allow the Postal Service to generate more
revenue, improve customer service, manage inventory, align staff with customer demands and improve store
performance.
5
  The Accounting Data Mart (ADM) is a financial and operational reporting vehicle that functions as a key part of the
Postal Service’s financial reporting system. A significant amount of financial reporting and all operational reporting is
performed through access to the ADM.
6
  The xxxx xxxx and xxxxxxxxxx Xxxx Post Office processed Business Reply Mail transactions, which generated
large refund amounts.
7
  Since the fieldwork initially started in January 2006, we reviewed and analyzed FY 2005 refund transaction data
from the ADM.




                                                            3
Review of the Postal Service’s Refund Process –                                                     DR-AR-07-011
 Capital Metro Area




                                                  Table 2. Summary of Refund Transactions Reviewed

                                                             Total Number         Total Number
                                                             of Transaction        of Refund
                                                                  Days            Transactions    Total Dollar
                                         Site location          Reviewed           Reviewed        Amount
                                        XXXX XXXX                       122               1,041     $1,147,961
                                        Xxxxx Xxxx                      112                 322           4,284
                                        Xxxxxxxxxx                      140               1,299         356,141
                                        Xxxxx Xxxxxxx                   109                 333           6,054
                                        Total                           483               2,995     $1,514,440

                                      Source: Postal Service Refund Transaction Documentation

                                      We conducted this audit from January 2006 through July 20078
                                      in accordance with generally accepted government auditing
                                      standards and included such tests of internal controls as we
                                      considered necessary under the circumstances. We relied on
                                      data obtained from the Accounting Data Mart within Retail Data
                                      Mart to determine the refund amounts for AICs 553, 535, and
                                      676 during FY 2005. Although we did not directly audit these
                                      systems, we performed a limited data integrity review to support
                                      our data reliance. We discussed our observations and
                                      conclusions with management officials on March 2, 2007 and
                                      included their comments where appropriate.

    Prior Audit Coverage              The Office of Inspector General (OIG) conducts financial audits
                                      in support of the annual financial statement opinion. These
                                      audits examine a broad range of expenditures, including
                                      refunds. While there were no systemic issues related to refunds
                                      in our latest report, Audit Report – Fiscal Year 2006 Financial
                                      Installation Audit – Post Offices, Stations, and Branches (Report
                                      Number FF-AR-07-094, dated February 20, 2007), there were
                                      some instances of refund compliance issues at individual audit
                                      sites.




8
    This project was suspended for a period of time to conduct higher priority audit work.




                                                             4
Review of the Postal Service’s Refund Process –                                               DR-AR-07-011
 Capital Metro Area



                                        AUDIT RESULTS
 Refund Process                     Capital Metro Area retail associates and customer service
                                    supervisors were not always properly processing and
                                    recording refunds of stamps, fees, retail services, and
                                    Express Mail services. Specifically, retail associates did
                                    not always complete refund documentation, enter the
                                    proper refund account identifier codes in the POS system,
                                    and provide signatures on PS Forms 1412. These
                                    conditions occurred because customer service
                                    supervisors did not always adequately oversee the refund
                                    process. As a result, we project the four sites visited in
                                    the Capital Metro Area have incurred $180,619 in
                                    unsupported questioned costs and $531,784 in assets at
                                    risk for refunds of stamps, fees, retail services, and
                                    Express Mail services. (See Appendix B.)

 Incomplete or Missing              Retail associates did not always complete PS Forms 3533
 Refund Documentation               and attach supporting documentation because they did
                                    not follow policies and procedures for processing and
                                    recording refund transactions. Of the 2,995 refund
                                    transactions reviewed, 997 refund transactions did not
                                    have completed PS Forms 3533 and 56 refund
                                    transactions were missing a PS Form 3533 from the daily
                                    closeout packets. In addition, 239 refund transactions
                                    were missing the required supporting documentation.
                                    Table 3 shows the total number of refund transactions
                                    reviewed and a summary of refund transactions with
                                    incomplete or missing documentation.

                                    Table 3. Refund Transactions with Incomplete
                                        or Missing Supporting Documentation
                                                                           Total        Total Number
                                          Total              Total        Number          of Refund
                                       Number of            Number         of PS        Transactions
                                         Refund              of PS      Forms 3533         Missing
                                      Transactions        Forms 3533      Missing        Supporting
                    Site Location      Reviewed           Incomplete     from File     Documentation
                   XXX XXXX                   1041                426            20                 35
                   Xxxxx Xxxx                   322                61              3               110
                   Xxxxxxxxxx                 1299                419            27                 78
                   Xxxxx Xxxxxxx                333                91              6                16
                   Total                     2,995                997            56                239

                  Source: Postal Service Refund Transaction Documentation




                                                      5
Review of the Postal Service’s Refund Process –                                                  DR-AR-07-011
 Capital Metro Area



                                       For example, a retail associate processed a refund
                                       transaction in the amount of $13.65. The PS Form 3533
                                       used to process the transaction was missing information
                                       such as employee and witness signatures. Another retail
                                       associate processed a refund transaction in the amount of
                                       $78.30, but the PS Form 3533 and supporting document
                                       were missing from the file. In addition, a retail associate
                                       processed a refund for an Express Mail transaction in the
                                       amount of $13.65. Supporting documentation, such as
                                       the customer receipt and the internet tracking form to
                                       confirm the late delivery, was missing from the file.

                                       Handbook F-1, Post Office Accounting Procedures,
                                       outlines the procedures for disbursing postal funds for the
                                       three AICs we reviewed. Refund requests must be
                                       submitted with a properly completed PS Form 3533 and
                                       supporting documentation. Retail associates stated they
                                       were aware of the proper procedures for processing and
                                       recording refund requests. Further, retail associates
                                       stated the refund procedures were moderate to easy to
                                       follow and supervisors have provided training sessions
                                       such as stand-up talks. Nevertheless, retail associates
                                       often submitted refund requests with incomplete PS
                                       Forms 3533.

    Recommendation                     We recommended the Vice President, Capital Metro Area
                                       Operations, direct District Managers, Capital and Northern
                                       Virginia, to ensure customer service supervisors:

                                       1. Provide oversight of retail associates to ensure they
                                          follow established procedures for processing and
                                          recording refunds.

    Management’s                       Management agreed with the finding, recommendation,
    Comments                           and monetary impact.9 Management issued a policy
                                       memorandum, PS Form 3533 Instructions and Closeout
                                       Procedures for Retail Associates, on June 25, 2007 to all
                                       Capital Metro Area district offices. The memorandum
                                       instructed district managers to distribute this information
                                       and take action to eliminate assets being at risk and
                                       unsupported cost. In addition, management stated they


9
    In subsequent discussions with management on July 3, 2007, management agreed with the monetary impact.




                                                        6
Review of the Postal Service’s Refund Process –                                       DR-AR-07-011
 Capital Metro Area



                                    will add verification procedures to the FY 2007 Post Office
                                    Quarterly Self-Audit Checklist for customer services
                                    supervisors, managers, and postmasters.

 Evaluation of                      Management’s comments are responsive to the finding
 Management’s                       and recommendation. Management’s actions are
 Comments                           sufficient to address the issues identified in the finding.




                                                  7
Review of the Postal Service’s Refund Process –                                           DR-AR-07-011
 Capital Metro Area




 Improper Recording            Retail associates did not always enter the proper AIC into the
 of Refund Account             POS system when processing refund transactions because
 Identifier Codes              they did not follow recording instructions in the area policy
                               memorandum. Of the 2,995 refund transactions reviewed,
                               449 transactions did not have the proper AIC entered on PS
                               Form 1412, Daily Financial Report. Table 4 shows the total
                               number of refund transactions reviewed and the total refund
                               transactions with incorrect accounting codes.

                                          Table 4. Refund Transactions with Incorrect AIC

                                                                                   Incorrect
                                                                 Number of        Accounting
                                                                   Refund          Codes on
                                           Site Location        Transactions     PS Form 1412
                                       XXXX XXXX                       1,041               341
                                       Xxxxx XXXX                        322                 15
                                       Xxxxxxxxxx                      1,299                 85
                                       Xxxxx Xxxxxxxxx                   333                  8
                                       Total                           2,995               449

                                        Source: Postal Service Refund Transaction Documentation

                               Many of the PS Forms 3533 reviewed did not have an AIC
                               checked or the correct AIC was not indicated on the form to
                               coincide with the PS Form 1412. Specifically, in some cases,
                               refund transactions were marked as AIC 553 on PS Form
                               3533, however, they were categorized as a different AIC on
                               PS Form 1412. Also, many refund transactions were marked
                               as AIC 553 on PS Form 1412; however, there was no AIC
                               indicated on the corresponding PS Forms 3533. For
                               example, a retail associate processed a refund transaction for
                               $163.95 and checked AIC 553. However, the refund amount
                               on PS Form 1412 was assigned to AICs 526 and 553 in the
                               amounts of $160.10 and $3.85, respectively.

                               Capital Metro Area officials issued a policy memorandum,
                               Proper Recording of Refund AIC Codes, dated January 24,
                               2002. Area officials issued the memorandum to provide
                               additional guidance on how to properly record refund
                               transactions under the appropriate AIC because they had
                               identified many instances of noncompliance with properly
                               recording AICs 535 and 553. According to the area officials,
                               incorrect coding can negatively impact retail revenue.




                                                   8
Review of the Postal Service’s Refund Process –                                   DR-AR-07-011
 Capital Metro Area




                               According to postal officials, since issuing the memorandum
                               in January 2002, there have been several organizational
                               changes within individual retail units, including promotions,
                               retirements, and position rotations. Consequently, customer
                               service supervisors and retail associates stated they were not
                               aware of the memorandum.

 Recommendation                We recommended the Vice President, Capital Metro Area
                               Operations, direct the Area Finance Manager and the Area
                               Retail Manager to:

                               2. Reissue the policy memorandum, Proper Recording of
                                  Refund Account Identification Codes, dated January 24,
                                  2002, to remind employees of the procedures to be
                                  followed regarding the processing and recording of refund
                                  account identifier codes.

 Management’s                  Management agreed with the finding and recommendation.
 Comments                      Management reissued the policy memorandum, Proper
                               Recording of Refund Account Identification Codes, on April
                               10, 2007 to all district managers.

 Evaluation of                 Management’s comments are responsive to the finding and
 Management’s                  recommendation. Management’s actions are sufficient to
 Comments                      address the issues identified in the finding.




                                                  9
Review of the Postal Service’s Refund Process –                                            DR-AR-07-011
 Capital Metro Area




 Appropriate                   Retail associates did not always provide signatures on PS
 Signatures Missing            Forms 1412 maintained in the daily closeout packets because
 from PS Forms 1412            they did not follow financial reporting procedures. In addition,
                               customer service supervisors did not always adequately
                               oversee the refund process. Of the 483 refund transaction
                               days reviewed, 294 transaction days did not have the
                               appropriate signatures on the PS Form 1412. Table 5 shows
                               the total number of transaction days reviewed and the total
                               number of PS Forms 1412 without appropriate signatures.

                                   Table 5. Total Number of Transaction Days Reviewed Without
                                             Appropriate Signatures on PS Forms 1412

                                                                  Total        PS Forms 1412
                                                                Number of         Without
                                                               Transaction      Appropriate
                                          Site Location           Days           Signatures
                                       XXXX XXXX                        122                 55
                                       Xxxxx Xxxx                       112                 72
                                       Xxxxxxxxxx                       140                 72
                                       Xxxxx Xxxxxxxxx                  109                 95
                                       Total                            483               294
                                        Source: Postal Service Refund Transaction Documentation

                               For example, a retail associate processed a refund
                               transaction for $25.29, but the individual PS Form 1412 was
                               not signed. Another retail associate processed a refund
                               transaction for $37.82, but the designated closeout employee
                               had not signed or verified the unit’s PS Form 1412.

                               Handbook F-1, Post Office Accounting Procedures, outlines
                               procedures for preparing and finalizing individual PS Forms
                               1412 and consolidating the unit PS Form 1412. This form is a
                               financial report which summarizes transactions for each retail
                               associate. The closeout employee then consolidates the
                               individual forms to create a unit PS Form 1412. Retail
                               associates are responsible for signing their PS Form 1412
                               and submitting supporting documentation to the designated
                               closeout employee. The closeout employee is responsible for
                               consolidating the individual PS Forms 1412 and verifying
                               supporting documentation.

                               However, the Postal Service requires customer service
                               supervisors to provide managerial oversight to all retail
                               associates. Moreover, they are tasked to direct and monitor




                                                  10
Review of the Postal Service’s Refund Process –                                    DR-AR-07-011
 Capital Metro Area


                               programs, projects, and the work of all retail associates to
                               meet organizational goals. According to customer service
                               supervisors, their signature is required to confirm the
                               necessary review and accuracy of the unit’s PS Form 1412.

 Recommendation                We recommended the Vice President, Capital Metro Area
                               Operations, direct District Managers, Capital and Northern
                               Virginia, to ensure customer service supervisors:

                               3. Verify whether retail associates are properly signing their
                                  individual clerk PS Forms 1412, Daily Financial Report.

 Management’s                  Management agreed with the finding and recommendation.
 Comments                      Management stated responsibility for review of properly
                               signed PS Forms 1412 is assigned to the customer services
                               supervisor and they have added this item to the FY 2007 Post
                               Office Quarterly Self-Audit Checklist which is monitored by
                               Finance.

 Evaluation of                 Management’s comments are responsive to the finding and
 Management’s                  recommendation. Management’s actions are sufficient to
 Comments                      address the issues identified in the finding.

 Recommendation                We recommended the Vice President, Capital Metro Area
                               Operations, direct District Managers, Capital and Northern
                               Virginia, to ensure customer service supervisors:

                               4. Review PS Forms 1412, Daily Financial Report, and
                                  supporting documentation at the end of each day.

 Management’s                  Management agreed with the finding and recommendation.
 Comments                      Management stated they have issued financial closeout
                               procedures to retail associates. Management also added
                               responsibility for reviewing PS Form 1412 supporting
                               documentation at the end of each day to the FY 2007 Post
                               Office Quarterly Self-Audit Checklist for customer services
                               supervisors, managers, and postmasters.

 Evaluation of                 Management’s comments are responsive to the finding and
 Management’s                  recommendation. Management’s actions are sufficient to
 Comments                      address the issues identified in the finding.




                                                  11
Review of the Postal Service’s Refund Process –                              DR-AR-07-011
 Capital Metro Area


                                           APPENDIX A

                         REFUND DISBURSEMENT PROCESS

The Postal Service has an established process to follow when disbursing refunds.
Customers may request a refund by completing PS Form 3533, Application and
Voucher for Refund of Postage, Fees, and Services, and submitting it to the retail
associate with evidence of postage and fees paid. The retail associate is required to
verify the information presented to ensure it is complete and accurate.

Before issuing the refund, the retail associate must sign PS Form 3533 and obtain a
witness signature to verify the transaction. If the requested refund amount does not
exceed $500.00, the retail associate must issue a no fee money order to the customer,
which is processed and maintained at the postal retail unit or post office. However, if
the refund amount does exceed $500.00, the retail associate must forward the
documentation to the Scanning and Imaging Center for the customer to receive their
refund. Also, the associate is required to maintain a copy of the documentation in the
retail unit for record keeping purposes. Figure 1. below outlines the complete refund
process.

                             Figure 1. Postal Service’s Refund Process




                                                  12
Review of the Postal Service’s Refund Process –                                DR-AR-07-011
 Capital Metro Area




                                           APPENDIX B

              STATISTICAL SAMPLING AND PROJECTIONS FOR
                 REVIEW OF POINT-OF-SERVICE REFUNDS


Purpose of the Sampling

The overall objective was to determine whether retail associates and customer service
supervisors were properly processing and recording refunds of stamps, fees, retail
services, and Express Mail services. In support of this objective, the audit team
employed a cluster sample of AIC 535, 553, and 676 refund transaction records. The
sample design allows statistical projection of the total amount of refunds without proper
records at each of four judgmentally selected sites.

Definition of the Audit Universe

In FY 2005, the Capital District and Northern Virginia District had a total of 181 window
units with total AIC 535, 553, and 676 refunds exceeding $3,000. The total value of
refunds for those units with those codes was $3,829,120. The audit team obtained this
ADM information from the Postal Service’s Electronic Data Warehouse (EDW). The
OIG’s Computer Assisted Assessment Techniques directorate assisted in summarizing
the data to support the sampling effort.

Audit resource constraints limited us to four judgmentally selected sites: two with refund
totals greater than or equal to $50,000 and two with refund totals greater than $3,000,
but less than $50,000. With this limitation, we lost the ability to project to the original
audit universe. However, these four sites accounted for $2,276,245 of the FY 2005
refunds in the Capital District and the Northern Virginia District, as shown below:

                                                                FY 2005
                                                                 Refund
                Capital and Northern Virginia Districts       Transactions
              All units                                           $3,992,908
              All units with greater than $3,000 in refunds       $3,829,120
              Four sites tested                                   $2,276,245

The refund amounts included BRM refunds, but we could not explicitly identify the
universe amount for BRM refunds from the database.




                                                  13
Review of the Postal Service’s Refund Process –                                DR-AR-07-011
 Capital Metro Area



Sample Design and Modifications

The universe data were sufficient to provide the total value of the target transactions by
day at each site. The data did not, however, identify the number of transactions per day
or individual transaction values. Therefore, we chose a cluster sample design for
transaction testing. For each site visited, we selected a sample of refund days and the
team tested all refunds for those days:

    •   Our sample of refund days was chosen to allow projection within each site
        individually. At each site, we identified several refund days that we wished to
        group into a census stratum.

    •   For the remainder of the days at each site, we calculated sample sizes based on
        the compliance test attribute, because we had no information regarding what
        variability we might expect in the unsupported dollar amounts.

For the calculation of the number of test days at each site, we used a desired
95 percent confidence level, a desired +/- 7 percent precision on an attribute projection,
and an expected 50 percent compliance error rate. We hoped this would provide a
sufficiently large sample of individual refunds to project the dollar value with +/- 20
percent relative precision. We did not, however, achieve this desired precision at all
sites, largely because of variability introduced by high-value BRM refunds.

Our universe and sample sizes are summarized below:

                                                    Number of Days
                                     Stratum I    Stratum I Stratum II Stratum II
                Site                 Universe      Sample   Universe    Sample
         Xxxxx Xxxx                         27          27        266         85
         XXXX XXXX                          14          14        247        110
         Xxxxxxxxxx                         20          20        336        125
         Xxxxx Xxxxxxxxx                    34          25        255         85

We made all selections for inclusion in the sample using the “randbetween” function in
Excel to assign random numbers to the days on the universe listing of refund days for
each site.

Sample Results

Table 1 summarizes the number of errors found in the sampled refunds at each of the
four audit sites. For example, we observed that:

    •   Xxxxxxxxxx had 58 refunds with four errors.




                                                  14
Review of the Postal Service’s Refund Process –                                                           DR-AR-07-011
 Capital Metro Area


     •   Overall, Xxxxxxxxxx had at least one error in 40 percent of its sampled refunds.

     •   Out of 11,783 criteria tested in the sampled Xxxxxxxxxx refunds (9 criteria x
         1,299 refunds + 2 criteria x 46 Express Mail refunds), 1,395 criteria were failed,
         for a criterion error rate of 12 percent.

The audit compliance testing contained nine criteria that applied to all refunds. An
additional two criteria applied only to Express Mail refunds. Table 2 summarizes the
number of compliance deviations noted by criterion. For example, of the 322 refunds
tested at XxxxxxXxxx:

     •   Six did not have the customer’s signature on PS Form 3533.

     •   110 did not have the appropriate supporting documentation attached.

Refunds were grouped into categories according to the error types observed.10 The two
critical criteria were the presence of the customer’s signature on Form 3533 and the
existence of the required supporting documentation (e.g., receipt, PVI label). Refunds
with an error in either or both of these criteria were considered unsupported questioned
costs (UQC). Most other error types were considered in the assets at risk (AAR)
category in that they did not indicate an unsupportable refund, merely a refund for which
the paperwork did not comply with policy in all regards. Three of the “other” error types
were considered reportable conditions, but not assets at risk, in the absence of any
other error types; two gave the wrong AIC for the refund; and one did not have a
supervisory signature on the daily PS Form 1412. Table 3 summarizes the errors
observed in the sample by error category, as well as notes the number and associated
dollar amounts for the refunds (in total), in the UQC and AAR categories. For example,
the XxxxxxXxxxxxx sample included 333 refunds totaling $6,053. Of those refunds:

     •   21 refunds representing a total of $493 were in the UQC category.

     •   16 refunds representing $475 were in the AAR category.

     •   269 refunds did not have the correct AIC or the supervisor’s signature on PS
         Form 1412, but contained no errors in the UQC or AAR categories.

     •   69 refunds contained no deviations.
10
  The types of errors and associated monetary impact reported in this audit may differ slightly from OIG financial
audits conducted in support of the annual financial statement opinion. The differences are related to the objectives
and scope of each audit. The financial audits examine a broad range of expenditures, not just refunds, and
reportable conditions related to refunds are generally limited to the critical errors. This performance audit specifically
examined compliance issues related to the "refund process" within the Capital Metro Area. Critical compliance issues
were reported as unsupported questioned costs, similar to the financial audits. However, we also reported other
compliance issues (both Postal Service and Area issues) as assets at risk.




                                                           15
Review of the Postal Service’s Refund Process –                                                        DR-AR-07-011
 Capital Metro Area



Included in the refunds at Xxxxxxxxxx and XXXXXXXXX were many BRM refunds.
These refunds are often quite large and they accounted for most of the amounts
refunded at those two sites. (XxxxxxXxxxxxx in Xxxxxxxxx had one BRM refund for
$1,097; XxxxxxXxxx had none.) Table 4 summarizes the category results for the BRM
refunds encountered in the sample. For example:

     •   785 of the 1,041 sampled refunds at XXXXXXXXX were BRM refunds,
         accounting for $1,121,170 of the $1,147,961 refunded in the sample.

     •   Six of the BRM refunds (a total of $58,575) were in the UQC category, without
         either a customer signature or the appropriate supporting document.11

     •   310 of the BRM refunds accounted for $308,848 in the AAR category.

Statistical Projections of the Sample Data

For projection of the amount associated with compliance errors for the UQC and AAR
categories in the audit universe, we analyzed the sample data using the formulas for
estimation of a population total for a stratified random sample, as described in
Chapter 5, Elementary Survey Sampling, Scheaffer, Mendenhall, and Ott, c.1990.

We made projections of the dollar value of refunds associated with refunds that fell into
the Unsupported Questioned Cost and the Assets at Risk categories. All projections
are limited to the audit universe of four sites and are made at an 80 percent confidence
level.

Unsupported Questioned Cost

Based on the sample results, our point estimate is that $180,619 was associated with
refunds not having a customer signature, not having appropriate supporting documents,
or both. The point estimate represents 15 percent of the ADM information from the
Postal Service’s EDW amount for the four sites. The point estimate includes a
projected $110,133 associated with BRM refunds. The uncertainty interval at the 80
percent confidence level is that $120,582 to $240,656 was associated with refunds in
the unsupported questioned cost category. The achieved relative precision is +/- 33.2
percent. Site-specific projections are included below:




11
  In fact, two of the six accounted for $51,924 in UQC: one ($13,730) did not pass seven of the nine possible criteria
and one ($38,194) did not pass all nine possible criteria.




                                                         16
Review of the Postal Service’s Refund Process –                                                       DR-AR-07-011
 Capital Metro Area



                             Unsupported Questioned Cost Summary
                 Lower Bound                   Upper Bound     Achieved
                 of 80 Percent                 of 80 Percent    Relative
                  Confidence        Point       Confidence   Precision, +/-
        Facility    Interval      Estimate        Interval      percent
     XxxxxxXxxx         $2,317          $2,718        $3,119             14.8
     XXXXXXXXX                       $128,785
                       $68,768                      $188,802             46.6
     [BRM]                         [$100,414]
     Xxxxxxxxxx                       $47,780
                       $46,409                       $49,191              2.9
     [BRM]                            [$9,718]
     Xxxxx
                          $766          $1,316        $1,866             41.8
     Xxxxxxxxx
     Combined12                      $180,619
                      $120,582                      $240,656             33.2
     [BRM]                         [$110,132]

Assets at Risk

Based on the sample results, our point estimate is that $531,784 was associated with
refunds in the assets at risk category. The point estimate represents 23 percent of the
ADM information from the Postal Service’s EDW amount for the four sites. The point
estimate includes a projected $515,594 associated with BRM refunds. The uncertainty
interval at the 80 percent confidence level is that $420,898 to $642,671 was associated
with refunds in the assets at risk category. The achieved relative precision is +/-20.9
percent. Site-specific projections are included below:

                                                          Assets at Risk Summary
                                  Lower Bound                           Upper Bound                   Achieved
                                  of 80 Percent                          of 80 Percent                 Relative
                                   Confidence                Point        Confidence                  Precision,
       Facility                      Interval              Estimate         Interval                  +/-percent
 XxxxxxXxxx                                $906                 $1,528          $2,149                       40.7
 XXXXXXXXX                                                    $437,628
 [BRM]
                                         $335,766                             $539,489                         23.3
                                                            [$430,341]
 Xxxxxxxxxx                                                    $91,384
 [BRM]
                                           $47,572                            $135,195                         47.9
                                                             [$85,256]
 XxxxxxXxxxxxxxx                               $885             $1,245          $1,605                        28. 9
 Combined12                                                   $531,784
 [BRM]
                                         $420,898                             $642,671                         20.9
                                                            [$515,594]

12
  Because the four sites were not randomly selected, we do not project to a larger universe. We do, however,
project to the audit population of all refunds at the four facilities. This is the “Combined” result. The sum of the
individual point facility point estimates equals the combined point estimate (differences due to rounding). The site
upper and lower bounds are not additive. Bounds for the combined results are calculated by combining the variances
as for a stratified sample, where the width of the combined uncertainty interval is the square root of the sum of the
squared differences between the facility point estimates and the corresponding facility upper or lower bound.




                                                         17
Review of the Postal Service’s Refund Process –                                       DR-AR-07-011
 Capital Metro Area



                                   Table 1. Sample Error Count

                                                                                     Xxxxx
                                    XxxxxxXxxx     XXXXXXXXX         Xxxxxxxxxx    Xxxxxxxxx
                                      Number of      Number of        Number of      Number of
               Measure                 Refunds        Refunds           Refunds       Refunds
               11 errors                      0              0                 0             1
               10 errors                      0              0                 0             0
                9 errors                      1              7                 0             1
                8 errors                      1              4                 4             4
                7 errors                      1              6                11             0
                6 errors                      0              8                 4             0
                5 errors                      2              9                40             4
                4 errors                    12              35                58            14
                3 errors                    20              84               136            49
                2 errors                    67             245               151            30
                1 error                    127             308               120           187
               No errors                    91             335               775            43
    Total number of refunds                322           1,041             1,299           333
    Total number of refunds
    with at least one error                  231               706           524           290
    Refund error rate                       72%               68%           40%           87%
               Measure                 Errors           Errors         Errors       Errors
    Possible number of criterion
    errors                                 2,948            9,413         11,783         3,051
    Number of criterion errors               403            1,420          1,395           522
    Criterion error rate                    14%              15%            12%           17%




                                                   18
        Review of the Postal Service’s Refund Process –                                           DR-AR-07-011
         Capital Metro Area



                                         Table 2. Sample Errors by Type


                                XxxxxxXxxx             XXXXXXXXX                Xxxxxxxxxx          XxxxxxXxxxxxxxx
                                        Total                 Total                     Total                  Total
                            Refunds    Number      Refunds   Number        Refunds     Number     Refunds    Number
                              with        of         with       of           with         of        with        of
        Condition           Deviation  Refunds     Deviation Refunds       Deviation   Refunds    Deviation  Refunds


AICs on PS Form 3533
and 1412 do not match             25        322            335     1,041        349       1,299         75        333
Refund not supported
by PS Form 3533                    3        322             20     1,041         27       1,299          6        333

PS Form 3533 Part I not
completed and signed
by customer                        6        322             43     1,041         40       1,299         12        333

Retail associates did not
check appropriate AIC
on PS Form 3533                   18        322            180     1,041        296       1,299         73        333
PS Form 3533 not
reviewed and Part II
signed by retail
employee                          23        322             34     1,041        120       1,299         13        333
PS Form 3533 not
witnessed and Part II
signed by second retail
employee                          26        322            196     1,041        203       1,299         31        333
Appropriate supporting
documentation not
attached (PVI labels,
receipts, invoices,
delivery confirmation,
certified mail)                  110        322             35     1,041         78       1,299         16        333
Proper accounting
entries not entered on
PS Form 1412 or 1412
missing                           15        322            341     1,041         85       1,299          8        333
PS Forms 1412 do not
have supervisory
signature                        160        322            226     1,041        187       1,299        283        333
For Express Mail:
Express Mail label
tracking number not
below barcode                      2          25             3       22           3         46           2         27
For Express Mail:
Express Mail
track/confirm intranet
item inquiry not
indicated                         15          25             7       22           7         46           3         27
TOTAL                            403       2,948          1,420    9,413      1,395      11,783        522       3,051




                                                              19
       Review of the Postal Service’s Refund Process –                                              DR-AR-07-011
        Capital Metro Area



                                     Table 3. Sample Results by Category


                    XxxxxxXxxx                 XXXXXXXXX                      Xxxxxxxxxx            XxxxxxXxxxxxxxx
                Total    Total Dollar      Total    Total Dollar          Total    Total Dollar    Total    Total Dollar
               Refunds     Amount         Refunds    Amount              Refunds    Amount        Refunds    Amount
Sample
refunds
amount per
ADM                  322      $4,284.10       1,041      $1,147,960.81      1,299   $356,144.24        333     $6,053.71
Sample
refunds
amount per
PS Form
3533                 322      $4,283.56       1,041      $1,148,764.08      1,299   $354,311.82        333     $6,053.51
Refunds:
UQC                  112      $1,216.04          61        $75,444.28         109    $45,555.38         21         $493.20
Refunds:
Assets at
Risk                  31        $673.15         463       $313,313.29         163    $41,517.91         16         $475.23
Refunds:
Reportable
Conditions,
No UQC, No
Assets at
Risk                  88            n/a         182                n/a        167           n/a        269             n/a
No
deviations            91            n/a         335                n/a        762           n/a         14             n/a
       n/a = not applicable




                                                            20
    Review of the Postal Service’s Refund Process –                                            DR-AR-07-011
     Capital Metro Area



               Table 4. Sample Results by Category for Business Reply Mail Refunds

                     XxxxxxXxxx                XXXXXXXXX                   Xxxxxxxxxx             XXxxxxXxxxxxxxx
                 Total    Total Dollar     Total    Total Dollar       Total    Total Dollar    Total    Total Dollar
                Refunds     Amount        Refunds    Amount           Refunds     Amount       Refunds     Amount
BRM refund
amount in
sample per
PS Form 3533           0          $0.00         785   $1,121,170.10        407   $302,667.72          1       $1,097.01
 BRM
refunds: UQC           0          $0.00           6     $58,575.00           3     $9,256.40          0              $0.00
BRM refunds:
Assets at
Risk                   0          $0.00         310    $308,848.25          44    $38,920.06          0              $0.00
BRM refunds
with
reportable
conditions,
no UQC, no
Assets at
Risk                   0       n/a              158         n/a             38       n/a              0        n/a
BRM refunds
with no
deviations             0       n/a              311         n/a            287       n/a              0        n/a
    n/a = not applicable




                                                       21
Review of the Postal Service’s Refund Process –        DR-AR-07-011
 Capital Metro Area


                   APPENDIX C. MANAGEMENT’S COMMENTS




                                                  22
Review of the Postal Service’s Refund Process –        DR-AR-07-011
 Capital Metro Area




                                                  23
Review of the Postal Service’s Refund Process –        DR-AR-07-011
 Capital Metro Area




                                                  24
Review of the Postal Service’s Refund Process –        DR-AR-07-011
 Capital Metro Area




                                                  25
Review of the Postal Service’s Refund Process –        DR-AR-07-011
 Capital Metro Area




                                                  26
Review of the Postal Service’s Refund Process –        DR-AR-07-011
 Capital Metro Area




                                                  27
